                                  Closeout for M99060030

   In J u n e 1999, the subject,l who worked a s a post-doctoral fellow in the
laboratory of an NSF-funded PI,2 admitted to the PI that he had fabricated
data. The PI, as director of the laboratory, terminated the post-doc's
employment, and the university expelled him. In response to our
recommendation, NSF7sDeputy Director debarred him. OIG7sinvestigation
report and the Deputy Director's letters reflecting his decision constitute the
Closeout for this case.


cc: Investigation, IG




  1   (redacted).
      (redacted) in the Department of Chemistry and Biochemistry at (redacted).. .


                                          Page 1 of 1
                                   NATIOIdAL SCIENCE F O U N D A T I O I ~
                                       4201 WILSON BOLILEVARD
                                      ARLINGTON, VIRGINIA 22230




    OFFICE OF M E                                    February 28, 2001
   DEPUTY DIRECTOR



 CERTIFIED      MAIL-RETURN RECEIPT REOUESTED




 Re :   Debarment
               -     -   --   --
 Dear Dr. 7                        -

On October 12, 2000, the National Science Foundation (NSF) sent
you a Notice of Proposed Debarment in which NSF proposed to debar
you from directly or indirectly obtaining the benefits of Federal
research grants for a period of one year. NSF's debarment action
is based on your severe misconduct in science discussed in detail
in the Notice of Proposed Debarment. In that Notice, which was
delivered to you on October 16, 2000, NSF informed you that you
had a period of 30 days to respond to the proposed debarment.
NSF did not receive any,response to the Notice of Proposed
Debarment on or before November 16, 2000. Accordingly, you are
debarred until October 12, 2001. Debarment is ,effective
 throughout the Executive branch of the Federal Government.
Debarment precludes you from receiving Federal financial and non-
financial assistance and benefits under nonprocurement Federal
programs and activities unless an agency head or an authorized
designee makes a determination to.grant an exception in
accordance with 45 CFR 620.215. Nonprocurement transactions
include grants, cooperative agreements, scholarships,
fellowships, contracts of assistance, loans, loan guarantees,
subsidies, insurance, payments for specified use, and donation
agreements. In addition, you are prohibited from receiving any
Federal contracts or approved subcontracts under the Federal
Acquisition Regulations (FAR) at 48 CFR Subpart 9.4 for the
period of this debarment. 45 CFR Section 620.110(c).
Under NSF's regulations, you have 30 days to submit an appeal of
this decision, in writing, to the Director of the Foundation. 45
CFR 6 8 9 . 8 ( c ) (1)(iii). Any appeal should be addressed to the
Director, National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia, 22230. (A copy of the applicable
regulations was enclosed with the previous Notice of Proposed
Debarment.1

If you have any questions regarding the foregoing, please feel
free to contact Lawrence Rudolph, General Counsel, at '(703)292-
8060.


                            Sincerely,
                                     A




                            Joseph Bordogna
                            Deputy Director
                         N A I IVNAL a ~ i c r v ~
                                                 n c    .-. . . . - . .
                                4201 WILSON B O U L E V A R D
                              ARLINGTON. VIRGINIA 22230




     OFFICE OF THE
    DEPUTY DIRECTOR

  CERTIFIED MAIL-RETURN RECEIPT REQUESTED




  Re:    Notice of Misconduct in Science Determination
         and Proposed Debarment


 This letter and the attached investigative report serve as formal
 notice that the National Science Foundation (NSF) proposes to
 debar you from directly or indirectly obtaining the benefits of
 Federal research grants for a period of one year. A person who
 is debarred will be excluded during the period of debarment from
 Federal financial and non-financial assistance and benefits under
 non-procurement Federal programs and activities. See 45 CFR
 5620.110, 1620.200. In addition, you will also be prohibited
 from receiving any Federal contracts or approved subcontracts
 under the Federal Acquisition Regulations (FAR) at 48 CFR Subpart
 9.4 for the period of this debarment. 45 CFR 9620.110(c),
 Debarment of an individual is effective throughout the executive
 branch of the Federal Government.
 Reasons for Debarment



                      1"
  NSF's decision to propose debarment is basedupon a referral from.
  our Office of Inspector General (OIG). The Foundation's
  administrative record indicates that you were formerly an
l
a
r
"
.
.
-, aboratory of                                            'n the
             ("the nlv                 uties nc u     opera on of a
 mas        ctrometer. You have admitted that you falsified dat
 Under NSF's misconduct in science and engineering regulations,
  "misconduct" is defined to include "fabrication, falsification,
 plagiarism, or other serious deviation from accepted practices in
 proposing, carrying out or reporting results from activities
 funded by NSF . . . " 45 CFR 5689.1(a). Your falsification of
 data is a serious deviation from accepted practices within the
 scientific community. I therefore conclude that you committed
 misconduct in science.
 Resulatorv Bases for Debarment
  In deciding what response is appropriate when misconduct is
  found, NSF must consider the seriousness of the misconduct;
 whether it was deliberate or careless; whether it was an isolated
 event or part of a pattern; and whether the misconduct affects
 only certain funding requests or has implications for any
 application for funding involving the subject of the misconduct
 finding. 45 CFR §689,2(b). Severe misconduct is a cause for
 debarment because (i) it affects the integrity of NSF research or
 education programs, see 4 5 CFR §620.305(b); 45 CFR §689.1(e), and
 (ii) it is a "cause of so serious or compelling a nature that it
 affects the present responsibility of a person," 45 CF'R
 S620.305 (dl .
Debarment must be for a period commensurate with the seriousness
of the cause. 4 5 CFR §620.320(a). The burden of proof ia on the
government to establish facts which justify debarment by a
preponderance of the evidence. 4 5 CFR §689.2(d); §620.314(c).
According to the Investigative Report, you willfully engaged in
falsification. You falsified post source decay spectra data on
several occasions in an effort to produce a cohesive data set.
Falsification of data is an extremely serious offense because it
distorts the scientific record. The scientific record is the
foundation for all future re'search. Both the Federal Government
and the scientific community have a vital interest in protecting
the integrity of the research process.
As a result of yourmisconduct, the Principal Investigator
prepared and s             uscript for publication which had to
be withdrawn .             also relied on the falsified data
when he                      abstract in support of his upcoming




I have also considered the mitigating factors in
came forward on your own initiative and admitted to
that you had engaged
               - -   in falsification at a time
under-suspicion. Fortunately, your admission prevented the
manuscript form being published by the journal. In addition, the
University has already addressed your misconduct when it
 terminated your postdoctoral fellowship. For all of the above
 reasons, I am proposing that you be debarred for one year.
 Procedures Governins Prowosed Debanent/Scientific Misconduct
 alleqations
 Under our regulations, you have 30 days after receipt of this
 notice to submit - - in person, in writing, or through a
 representative - - information and argument in opposition to the
 proposed debarment. 45 CFR fi620.313(a). During this 30-day
 period you may also review the attached Investigative Report and
 submit comments or rebuttal. 45 CFR 5689.8 (c)(11, 5689.1 (e).
 Comments submitted within the 30-day period wil1,receivefull
 consideration and may lead to revision or withdrawal of the
 Investigation Report or of the recommended disposition.
Any respmse  should be addressed to Lawrence Rudolph, General
Counsel, National Science Foundation, 4201 Wilson Boulevard, Room
1265, Arlington, VA 22230. If you have any questions, please
contact Mr. Rudolph at (703) 292-8060. I am attaching a copy of
the Foundation's regulations on Non-Procurement Debarment and
Misconduct in Science and Engineering, and FAR Subpart 9 . 4 .




                                   Joseph Bordogna
                                   Deputy Director


Attachments ( 4 )
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
Misconduct in Science Regulations
     CONFIDENTIAL




    NSF OIG Investigation Report


          MARCH27,2000
>




    OIG Case Number M99060030
             REPORT OF INVESTIGATION INTO AN ALLEGATION OF
                MISCONDUCT IN SCIENCE AND ENGINEERING

                                               SUMMARY

        The Office of Inspector General (OIG) has concluded that-
(the subject) fabricated data while conducting research supported by an NSF award. This
conclusion was based on an investigation by OIG, after we learned that the subject had
admitted to the fabrication before the data were to be published. In the course of the OIG
investigation, the subject reiterated his admission of fabrication and apologized for his
actions. We recommend that NSF send the subject a letter of reprimand and.debarm--:
for a period of one year.

                           OIG'S INQUIRY AND INVESTIGATION

        An NSF program director' contacted OIG to inform the office that he had heard
from a principal investigator2 (PI) on an NSF award: that an individual who worked in
the PI's laboratory had admitted to fabricating data. OIG contacted the PI, who said that
the subject: a postdoctoral fellow in his group, had walked into his office and admitted
fabricating data. The PI said that because he was director of the laboratory, he had




                                                      -
handled the situation by immediately terminating the subject from employment. He then
contacted NSF because the questionable data generated by the subject were supported by
the NSF award.

        Because the allegation involved an individual who was no longer affiliated with
the university: OIG undertook its own inquiry and investigation. OIG's letter to the PI
requesting a full explanation of the alleged data fabrication, the subject's admission of
fabrication, and the actions taken by the PI or other officials in response to the data
fabrication appears at Tab 1. The PI's response is set forth at Tab 2.

         The Fabrication

       According to the PI, the subject told him that he had fabricated data he had
obtained on a mass spectrometer by disabling the "timed ion select~r."~
                                                                      By operating the
mass spectrometer with the ion selector disabled, the instrument produced an apparent


                             a program director for the                          program in the

                           Professor, Department of Chemistry and Biochemistry




award in the progress re



                           age 2. See Tab 2.
signal "at the correct location in the spectra even though no bona fide signal was
present."7 The subject used this method to generate nearly all the data in a manuscript
that the PI and the subject had submitted for publication in a journal in                 .~
The PI had presented the first figure from the manuscript as a part of a presentation at a
conference earlier that month.g In addition, the subject had been planning to present the
data at a scientific society meeting about a week after he admitted to the fabrication."
Shortly after learning of the fabrication, the PI withdrew the manuscript and the
upcoming presentation at the scientific society.

          The Admission of Fabrication

        The PI first learned of the fabrication from his industrial c~llaborator'~   on the
NSF-supported project, after the subject had admitted the fabrication to her. Shortly
thereafter, the subject came to the PI'S office and stated that he had fabricated nearly all
of the data presented in the manuscript. The admission was spontaneous; neither the PI
nor the collaborator had questioned the validity of the subject's work." According to the
PI, the subject said that, "He was feeling pressure to get data for his project. He felt that
fabricating data in this manner was needed to 'save' his job."I3 Apparently the subject
admitted to the fabrication because "[hle was afraid that his actions would be exposed
during his presentation at the meeting the following week."14 The subject also mentioned
that "he refused to speak about this work at an internal meeting on June 4 because he was
afraid his actions would be exposed."15

        According to the PI, the only evidence of the fabrication is the voluntary
confession of the subject. The laboratory notebooks do not provide evidence of the
fabrication because the data were generated through a certain way of operating the
instrument. However, both the PI and his collaborator "say that it is plausible that false
data could have been generated in the manner described by" the subject.I6 Besides
admitting the fabrication to the PI and the collaborator, the subject apparently admitted
his actions to other members of the PI'S research group later that day.




13
   Letter from PI to OIG at bage 2.   See Tab 2.
14
   Letter from PI to OIG at page 2.   See Tab 2.
IS
   Letter from PI to OIG at page 2.   See Tab 2.
16
   Letter from PI to OIG at page 3.   See Tab 2.
                Actions Taken by the PI and Others Followinp the Admission of Fabrication

         After the subject admitted to the data fabrication, the PI contacted his department
 chairman, and explained the situation. Because of the seriousness of the conduct, the PI,
 with the support of the department chairman,17 decided to terminate the subject
 immediately, ending his support from the NSF award and his status as an employee of the
 university.'* The company'g that employed the PI'S industrial collaborator also took
 action by revoking the subject's independent contractor's pass. Because of this the
 subject would no longer be able to fulfill his obligation to conduct 50% of his research
 effort at the company.20

                The Subiect's Admission of Fabrication to OIG

         Afrer receiving the letter from the PI describing the data fabrication, we sent the
 subject a summary and asked him to comment on the accuracy of the events describede21

                                                                                ---
 We also suggested that if he   - found the allegations to be correct, that he provide an
                                          -
                                          -
                                          -
                                          =
 explanation for his actions. (      '     s response to our letter, in which he admits that
 the allegations described are "true and accurate," is set forth at Tab 4. s-'           letter,
 in which he states that he "deeply regret[s]3these events,"  is forthcoming   and contrite. In
 making our recommendations to NSF,
 following:
                                               f-2 ---
                                                  r


                                                      -   requested that OIG consider the


                (i) I made the admission to Drs.           a n f m y own l n e wi0
                                            ; I am ee y admitting to my actions to you
                and judgment on June 8 ~ (ii)
                now and a reeing in full with the "Draft Summary of Allegations"; (iii)
                Dr.           and the h-ave                         already taken punitive
                and corrective measures against me t ough my termination from the
                University, and through the ending of my support through the National
                Science Foundation; and, perhaps most importantly given the
                circumstances, (iv) The data never made it into print; all materials
                containing the data were withdrawn prior to publication in the literature.
      --    --
             --
                      stated that he "will ensure that nothing like this ever happens again. . . . I
            -


-:-aslo
      apologize to the National Science Foundation for this whole incident."

                OIG'S CONCLUSION REGARDING MISCONDUCT IN SCIENCE
  '"4
       NSF'sj~gulationon Misconduct in Science and Engineering (45 C.F.R. pt. 689)
 >*..*,a.

defines misconduct in part as




                           - -.
                             -    -   -
                                                                   ofMisconduct in Science and
Engineering
           Fabrication, falsification, plagiarism, or other serious deviation from
           accepted practices in proposing, carrying out, or reporting results from
           activities fknded by NSF . . . .22

Fabrication of data from a mass spectrometer while working on an NSF-funded project,
clearly fits within the definition. Even when the conduct is one of the named examples of
misconduct listed in the definition, the conduct must represent a "serious deviation from
accepted practices" to be considered misconduct. Data fabrication is generally
considered to be a serious violation of professional ethical standards. We believe that the
extent of data fabrication in this case, the generation of nearly all the data submitted in a
manuscript, as well as the generation of data for presentation or planned presentation at
two professional society meetings, is clearly a serious deviation fiom accepted practices,
and thus falls within the definition of misconduct under NSF's regulation. Moreover,
because the subject voluntarily admitted to fabricating the data, and has not denied that
admission, the preponderance of the evidence indicates the subject fabricated the data.

         The evidence shows that the subject not only seriously violated the ethical
standards of the scientific community, but that he did so knowingly--a state of mind that
justifies taking action against &m. The subject's admission to fabrication of nearly all
the data in the manuscript (as well as that which had been submitted for presentation)
indicates that this was not a simple mistake, or even an instance where an individual
knowingly decides to use invalid data generated as a result of a simple mistake. Rather,
this was a series of serious breeches of scientific ethics, knowingly committed by the
subject. As stated by the PI:

          First, [the subject] fabricated spectra not once but several times in an
          effort to produce a cohesive data set. This was not a single bad decision
          made in a stressful moment, but a series of bad decisions made over time.
          Second, the deception was continued for several months, encompassing
          the presentation of preliminary results at a . . .Conference, the preparation
          and submission of a manuscript for publication, and the preparation of an
          extended abstract in support of an upcoming oral presentation.

Accordingly, we conclude that a preponderance of the evidence supports a finding that
the subject committed a serious deviation from accepted practice and did so knowingly.
Hence, we conclude that the subject's actions were misconduct in science under NSF's
definition, and recommend that NSF make a finding to that effect.

                               OIG'S RECOMMENDED DISPOSITION

       Under § 689.2(b) of NSF7sregulation on Misconduct in Science and Engineering,
upon making a finding of miscondu~t,NSF, in determining what actions it should take,
must consider the seriousness of the misconduct. This includes considering the state of
mind with which the subject committed misconduct and whether the misconduct "was an

" 45   C.F.R. Q 689.1(a)(l).
 isolated event or part of a pattern"23 We have explained why the subject's actions.
 seriously deviate from accepted practices and hence are misconduct; this section explains
 OIG's recommended action in light of our assessment of the seriousness of the subject's
 misconduct, i.e. our assessment of how serious this instance of misconduct is in relation
 to other instances.

        In our view, extensive data fabrication, which corrupts the scientific record and
goes to the heart of the scientific enterprise, is a very serious form of misconduct.
~cientists'rel~ on the veracity of their colleagues7results to plan subsequent experiments
and develop scientific hypotheses. Data fabrication is a deceptive act that at minimum
will result in other scientists wasting their time as they attempt to follow up invalid
results. We believe that the data fabrication in this case, which involved not only a
presentation at a national conference, but also a manuscript and a planned presentation, is
very serious. The PI and his collaborator were forced to withdraw the manuscript and the
planned presentation, and as a result of the subject's deception, the PI himself briefly
presented fabricated data at the conference. Moreover, as stated above, this was not an
isolated instance of fabrication, but rather a series of events which occurred over a
substantial period of time. Accordingly, we conclude that the misconduct in this case
was very serious. Under these circumstances, because the subject is as likely to be
employed in a project funded by a federal award as to receive federal funding as a PI, we
could find it appropriate to recommend in addition to debarment that the subject enter
into a voluntary agreement to inform any federally-funded employer that he had
committed misconduct in science.

        However, a number of facts tend to mitigate the seriousness of the subject's
misconduct. These include the relative youth and inexperience of the subject, who had
only received his Ph.D. one year before:4 and the fact that the subject spontaneously
admitted to the fabrication before the data were published, at a time when he was under
no suspicion. Moreover, the subject has already been discharged from employment and
will likely bear a heavy burden to secure future employment in his field. We believe that
these facts, and the subject's expressions of regret and assurances that he would not
engage in this type of activity again, indicate that the subject has taken responsibility for
his misconduct and understands its gravity.

        NSF's Debarment and Suspension regulation provides that "debarment shall be
for a period commensurate with the seriousness of the cause(^)."^^ Accordingly, we
recommend that NSF debar the subject for a period of one year. Debarment is a group 111
action.26 NSF should also send the subject a letter of reprimand (a Group I action),
concluding that it considers his fabrication to be misconduct in science.27 We believe
that these actions will adequately protect the federal interest in the integrity of work



23 45 C.F.R. Q 689.2@)(3).
24 The Ph.D. was awarded in 1998 from th
25 45 C.F.R. Ij 620.32qaXl).
                       ... .
26 45 C.F.R. 689.2(aX3)(ii).
'' 45 C.F.R. 5 689.2(aXl)(i).
   carried out under federal awards and are proportionate to the seriousness of the subject's
   misconduct.

             THE SUBJECT DID NOT RESPOND TO OIG'S DRAFT REPORT

           We provided the subject with a copy of the draft investigation report.28 The
   subject received the report, but did not reply within the 30-day comment period. We
   telephoned the subject, who confirmed that he did not wish to provide comments or
   rebuttal to the draft report. We note, however, that the subject had previously provided a
   response to OIG's draft summary of the allegations.29 Accordingly, this report is
   identical to the draft investigation report provided to the subject, with the exception of the
   addition of this last section.




  *' A copy of OIG's transmittal letter is provided at Tab 5.
. 29       -- 3 for a copy-.-
     See Tab                of the Draji Summary ofMisconduct in Science and Engineering Allegations
 Against 4                    md Tab 4 for a copy of the subject's response.
